OIG Audit Report GR-30-06-005

Office for Victims of Crime, Crime Victim Assistance Grant and Cooperative Agreements Awarded to Justice Solutions, Washington, D.C.

Audit Report GR-30-06-005


May 2006
Office of the Inspector General


Executive Summary





The Crime Victims Fund (Fund) is a major funding source for victim services throughout the United States.  Derived from monies collected from convicted offenders of federal crimes via fines, forfeited bail bonds, penalties, and assessments, the Fund is administered by the Office for Victims of Crime (OVC).  As part of its function to oversee diverse programs that benefit crime victims, the OVC uses certain Fund deposits to award crime victim assistance grants and cooperative agreements.
The Office of the Inspector General, Audit Division has completed an audit of four discretionary crime victim awards administered by Justice Solutions.  Located in Washington, D.C., Justice Solutions is a non-profit organization established to enhance the rights, resources, and respect for victims and communities hurt by crime.  Between September 2002 and January 2006, Justice Solutions received four OVC awards totaling $2,384,015 to develop support projects, public awareness programs, and training curriculums for those serving victims of crime.  We conducted our audit to determine whether costs claimed under the four awards were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions.
Our audit found that Justice Solutions complied in-part with requirements for these four respective awards.  However, we determined that Justice Solutions:  (1) Submitted inaccurate and untimely Financial Status Reports (FSRs); (2) submitted untimely award progress reports; (3) may have violated the minimum federal cash on-hand requirements by requesting a total of $197,602 more than it had spent for 3 of the 4 audited awards; (4) did not identify or classify individual charges to each award as they occurred in its accounting system; and (5) did not allocate personnel costs based on time worked on each award.